<html>
<title> - [H.A.S.C. No. 111-173]JAPAN: RECENT SECURITY DEVELOPMENTS</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]







                         [H.A.S.C. No. 111-173]

 
                  JAPAN: RECENT SECURITY DEVELOPMENTS

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JULY 27, 2010


                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
62-162                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="adcaddc2edced8ded9c5c8c1dd83cec2c083">[email&#160;protected]</a>  
                                     

                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          BILL SHUSTER, Pennsylvania
BRAD ELLSWORTH, Indiana              CATHY McMORRIS RODGERS, Washington
CAROL SHEA-PORTER, New Hampshire     K. MICHAEL CONAWAY, Texas
JOE COURTNEY, Connecticut            DOUG LAMBORN, Colorado
DAVID LOEBSACK, Iowa                 ROB WITTMAN, Virginia
JOE SESTAK, Pennsylvania             MARY FALLIN, Oklahoma
GABRIELLE GIFFORDS, Arizona          DUNCAN HUNTER, California
NIKI TSONGAS, Massachusetts          JOHN C. FLEMING, Louisiana
GLENN NYE, Virginia                  MIKE COFFMAN, Colorado
CHELLIE PINGREE, Maine               THOMAS J. ROONEY, Florida
LARRY KISSELL, North Carolina        TODD RUSSELL PLATTS, Pennsylvania
MARTIN HEINRICH, New Mexico          CHARLES K. DJOU, Hawaii
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
JOHN GARAMENDI, California
MARK CRITZ, Pennsylvania
LEONARD BOSWELL, Iowa
DAN BOREN, Oklahoma
HANK JOHNSON, Georgia

                     Paul Arcangeli, Staff Director
                Dave Sienicki, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Tuesday, July 27, 2010, Japan: Recent Security Developments......     1

Appendix:

Tuesday, July 27, 2010...........................................    35
                              ----------                              

                         TUESDAY, JULY 27, 2010
                  JAPAN: RECENT SECURITY DEVELOPMENTS
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Campbell, Hon. Kurt M., Assistant Secretary of State for East 
  Asian and Pacific Affairs, U.S. Department of State............     6
Gregson, Hon. Wallace C., Assistant Secretary of Defense for 
  Asian and Pacific Security Affairs, U.S. Department of Defense.     4
Pfannenstiel, Hon. Jackalyne, Assistant Secretary of the Navy for 
  Energy, Installations, and Environment.........................     8

                                APPENDIX

Prepared Statements:

    Campbell, Hon. Kurt M........................................    51
    Gregson, Hon. Wallace C......................................    41
    McKeon, Hon. Howard P. ``Buck''..............................    38
    Pfannenstiel, Hon. Jackalyne.................................    58
    Skelton, Hon. Ike............................................    35

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Mr. Ortiz....................................................    67
    Mr. Taylor...................................................    67

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
                  JAPAN: RECENT SECURITY DEVELOPMENTS

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                            Washington, DC, Tuesday, July 27, 2010.
    The committee met, pursuant to call, at 10:02 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good morning. Today the House Armed Services 
Committee meets to receive testimony on recent security 
developments in Japan. Our witnesses today, the Honorable Chip 
Gregson, the Assistant Secretary of Defense for Asian and 
Pacific Security Affairs, the Honorable Kurt Campbell, the 
Assistant Secretary of State for East Asian and Pacific 
Affairs, and the Honorable Jackalyne Pfannenstiel, the 
Assistant Secretary of the Navy, Energy, Installations and 
Environment. And we welcome you and thank you for being with 
us.
    There is little doubt that the alliance between our country 
and Japan represents a cornerstone for peace and stability in 
the Asia-Pacific region, because I am convinced that the Asia-
Pacific region will be increasingly central to the concern of 
America's national interests. And in this century, I believe it 
is essential that the U.S.-Japan alliance continue to grow 
based on shared interests and shared values.
    U.S.-Japan alliance has clearly been undergoing a period of 
transition in recent years, which has not come without 
complications. Rhetoric and occasional disagreements aside, 
though, our two nations clearly remain partners. Japan has 
obligated $900 million to provide assistance to Afghan national 
security forces, part of a $5 billion package of aid to 
Afghanistan. Japan has also pledged $1 billion to support 
international assistance efforts in Pakistan. Japan has 
supported South Korea and the United States in the dispute over 
the sinking of the Cheonan.
    The Japanese have also been instrumental in Six-Party 
negotiations with North Korea. And finally, Japan has worked 
diligently to address many longstanding grievances with its 
East Asian neighbors. Clearly, one of the most apparent issues 
of concern between our nations has been stationed U.S. forces 
on Okinawa. I strongly support the Marine Corps presence in 
Okinawa, one that the U.S. has long maintained and over time, 
some U.S. bases have become significantly encroached. This 
encroachment has led to significant issues regarding the burden 
of the facilities on the civilian population.
    Accordingly, the U.S. and Japan entered into an agreement 
in 2006 to relocate 8,000 Marines from Okinawa to Guam and to 
construct a new base in Northeast Okinawa far from major 
population centers. Both sides will make significant financial 
contributions to the effort. When the current ruling party in 
Japan recently assumed control, however, they expressed concern 
about the nature of the agreement and initially sought to 
modify the 2006 roadmap. After significant discussions by the 
Administration with Japan, I am pleased that they have recently 
reaffirmed the roadmap.
    Let me be clear. It is essential that the U.S. retain the 
ability to project forces in the East Asian theater to ensure 
regional stability and prosperity. U.S. forces on Okinawa are 
central to this capability. Japan also benefits substantially 
from this partnership. They are able to devote less than 1 
percent of their gross domestic product toward their national 
defense. Given the benefits of both nations, I see little need 
for major changes to the current Status of Forces Agreement. 
This year marks the 50th anniversary of the U.S.-Japan Treaty 
of Mutual Cooperation and Security. If both nations stay true 
to their national interests, I believe we can look forward to 
at least another 50 years of such mutual cooperation. Before I 
turn to my good friend, our ranking member, the gentleman from 
California, Buck McKeon for any comments he might care to make, 
let me mention my disappointment at the failure of the 
Department of Defense and the Department of State to submit 
witness testimony for this hearing in a timely manner. 
Arrangements for this hearing were made many weeks in advance, 
and I cannot imagine how it came to pass that we did not 
receive testimony until just yesterday. Mr. McKeon.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 35.]

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. And welcome to our 
witnesses. We appreciate your being here this morning. Mr. 
Chairman, this is a very timely and important hearing 
considering the most recent saber rattling from North Korea and 
the continued equivocation from the Government of Japan 
concerning the ultimate location of the Marine airfield on 
Okinawa. Much of today's hearing will focus on the multitude of 
unresolved issues concerning the realignment of the Marine 
forces in the Pacific, particularly the move of approximately 
8,000 Marines and their families from Okinawa to Guam, and 
associated moves on Okinawa itself.
    Make no mistake, these are important questions, but what is 
more important, however, is the reason we are undertaking this 
upheaval. The United States has long been focused on Europe. In 
recent years, our attention has naturally shifted to the Middle 
East and South Asia in our continual fight to stamp out Al 
Qaeda and its allies. We cannot, for a moment, forget, however, 
how critical the Pacific and the Pacific Rim countries are to 
our national security. While we have friends along the Pacific 
Rim, Japan among them, they are fewer and scattered over a vast 
ocean. The threats are ominous, with China rapidly increasing 
in both military and economic power. Even worse, North Korea, a 
failing state led by an unstable dictator possessing nuclear 
weapons, has just threatened military action if we even conduct 
military exercises with the South Koreans. Against this 
backdrop, Japan is a friend, but a friend who relies on our 
military power to protect them.
    In exchange, the Government of Japan provides military 
bases as well as some funding to establish and operate these 
bases. In my view, Japan is getting quite a bargain. And 
sometimes fails to recognize the great benefit the United 
States provides, provides them with our conventional forces and 
nuclear shield. Even so, we have agreed to reduce our footprint 
in Japan by moving a substantial number of Marines to Guam with 
Japanese financial assistance. We have agreed to this move in 
order to assure our ability to station the III Marine 
Expeditionary Force in the western Pacific and ensure our 
strategic-ready, forward-deployed land force is able to deploy 
at a moment's notice where needed.
    With elements of this corps-sized land force split among 
small bases in Hawaii, Guam and Okinawa, each island thousands 
of miles from the others, we need to resolve the remaining 
questions and get on with executing this plan. Last year the 
Chairman and I, accompanied by several other members, traveled 
to all three locations. Space on each island is limited. The 
training needs of the military are often difficult to reconcile 
with the needs of the local populace.
    Nonetheless, our Marines are there for the national 
security of Americans, Japanese and South Koreans alike. With 
American lives on the line, the least the Japanese can do is 
provide credible installations for our forces. While much 
progress has been made since our February 2009 trip, far too 
much is still unresolved. I was dismayed to read in the press 
that the new Prime Minister of Japan may delay the decision on 
the new Marine airfield on Okinawa until November. We 
understand the issue is politically sensitive on Okinawa, but 
the resolution of that issue is the key to the whole puzzle. 
Furthermore, we still do not have a U.S. Government plan for 
developing the infrastructure of Guam. Guam and her people are 
patriotic, welcoming and generous, but they do not have the 
resources to build the roads, power plants, water and 
wastewater infrastructure necessary to support such a large 
influx of people.
    Despite repeated emphasis by this committee, there is no 
plan other than the Office of Management and Budget [OMB] will 
assign responsibility and provide funding to concerned agencies 
in the fiscal year 2012 budget. The idea of putting OMB in 
charge is not only not reassuring, it is frightening. I look 
forward to hearing the witnesses' perspective on these matters 
and yield back.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 38.]
    The Chairman. General Gregson, please.

 STATEMENT OF HON. WALLACE C. GREGSON, ASSISTANT SECRETARY OF 
DEFENSE FOR ASIAN AND PACIFIC SECURITY AFFAIRS, U.S. DEPARTMENT 
                           OF DEFENSE

    Secretary Gregson. Mr. Chairman, Mr. McKeon, distinguished 
members of the committee, thank you for the privilege of 
appearing before you today to discuss recent security 
developments with Japan. As the Chairman mentioned, this is the 
50th anniversary of our Treaty of Mutual Cooperation and 
Security. It is a unique alliance relationship built on common 
interests, shared values and complementary contributions that 
bind together two very different nations. Within this alliance, 
there are other unique relationships with Okinawa prefecture, 
for example, which is much in the news recently. The Japanese 
election last fall called for a thorough revalidation of our 
alliance structure and its operation.
    The conclusion is that the essential purpose and structure 
of the alliance remains vital. Our relationship with Japan 
includes a number of bilateral security activities beyond 
management of our bases. The U.S.-Japan missile defense 
cooperation is now a central element in our defense 
relationship. Japan's investments in four BMD [Ballistic 
Missile Defense]-capable Aegis destroyers, upgrades of its 
Patriot battalion PAC [Patriot Advanced Capability]-3 
capability and installation of an X-Band radar aid in that 
missile defense.
    Cooperation is growing in humanitarian assistance and 
disaster relief. Japanese Self-Defense Forces deployed 
alongside American partners to address humanitarian challenges, 
such as the 2004 tsunami response and providing relief to 
Haiti.
    We consult on strategic issues. Throughout the past 18 
months, we collaborated with our Japanese counterparts on the 
Quadrennial Defense Review [QDR], the Nuclear Posture Review 
[NPR], and the Ballistic Missile Defense Review [BMDR]. We will 
discuss extended deterrents and we are planning space and 
cyberspace discussions. We are working closely with Japan on 
their development of their National Defense Program Guidelines.
    Japan is strengthening security ties with countries in the 
region. The current trilateral ties among the United States, 
Japan and South Korea are unprecedented. Internationally, Japan 
is a valuable partner in Afghanistan and maritime security 
operations. Japan's cooperation helped construct the Afghan 
Ring Road and pay the salaries of the Afghan National Police. 
Japan's $5 billion pledge supporting civil sector efforts will 
support building civilian capacity, reintegration of militants, 
demilitarization and economic development, all critical 
components of our Afghan strategy. Japan's Maritime Self-
Defense Force remains active in counterpiracy operations off 
the Horn of Africa.
    Japan also provides forces to U.N. missions in Nepal, the 
Sudan, Haiti and the Golan Heights. For the past 6 years or 
more, Japan and the United States made historic progress in 
revalidating, modernizing and realigning our alliance, presence 
and capabilities in Japan and the region. A series of 
progressively more detailed agreements since early 2005 created 
the foundation for the most complex changes in the operation of 
our alliance since the signing of the treaty in 1960.
    Focus on relocation of Marine Corps Air Station Futenma 
has, for certain, been intense. Lost in that focus is that most 
of the 2005-2006 plans for realignment are moving forward with 
little controversy. We are collocating air and missile defense 
command to Yokota Air Base, bringing permanent Japanese 
presence for the first time on to a base that houses our U.S. 
forces, Japan headquarters. The headquarters of the Ground 
Self-Defense Forces Central Readiness Force will be moved on to 
Camp Zama to be collocated with the transformed U.S. Army 
command and control structure. We will relocate Carrier Air 
Wing Five currently at Atsugi Naval Air Station to Marine Corps 
Air Station Iwakuni, reducing the impact of our presence in a 
very densely populated community.
    In September of 2008, the USS George Washington arrived in 
Japan sparking little opposition. We are expanding 
opportunities for bilateral training and operations in Guam, 
the Commonwealth of the Northern Marianas and in the Compact 
States, as well as within Japan, making our presence at the 
same time more politically sustainable. The sinking of the 
Cheonan and the deployment of a large PLA [People's Liberation 
Army] Navy Surface Action Group through waters near Okinawa 
reminded Japan and the region of the vital deterrent role 
played by U.S. forces in Okinawa and across Japan.
    The joint statement issued May 28th by Secretary Gates and 
Secretary Clinton and her Japanese counterparts designates the 
location of the FRF [Futenma Replacement Facility] in Camp 
Schwab area and tasks a bilateral experts group to develop a 
specific plan by the end of August. That effort is well 
underway and we expect the group to complete its efforts on 
schedule. Of course, the FRF at Camp Schwab is a single 
component of a larger plan to consolidate the U.S. presence on 
Okinawa and move our forces away from the densely populated 
southern portion of the island. The full Okinawa realignment 
package will allow us to reposition approximately 8,000 Marines 
from Japan to Guam and return nearly 70 percent of the 
urbanized land south of Kadena Air Base. This will ensure a 
much more sustainable and enduring presence for U.S. forces on 
Okinawa and also enhance the alliance's operational needs and 
capabilities. Most importantly to the Okinawans, it directly 
affects their noise, safety and environmental concerns.
    At the same time, the American community on Okinawa, both 
uniformed and civilian, continues to expand our efforts to be 
productive members of that community. Okinawa has been shaped 
by powerful historic and geographic factors making military 
matters the dominant theme. It was annexed by Japan in 1879. In 
1945, Okinawa suffered from the ``rain of steel'' in the last 
bitter battle of a very bitter war. One-third to one-half of 
the civilians alive before the battle perished, caught between 
the contending forces. The year 1972 brought reversion to 
Japan. Throughout, this island community has held unrealized 
economic and educational potential.
    The Obuchi Fellowship created on the occasion of the 
Clinton-Obuchi Summit in 2000 provides important opportunities 
for Okinawan students to study in the United States. The 
Okinawa Institute of Science and Technology was conceived and 
announced in 2000. It is now formally open and is a quality 
institution. The U.S. universities in Okinawa have continued to 
expand their local scholarships. The American Chamber of 
Commerce is making major contributions to English language 
education in the secondary schools. Many service members and 
their spouses teach English in the grade schools, establishing 
enduring cross-cultural relationships in the process. Our 
Ambassador to Japan has worked hard to ensure that Okinawa will 
be a part of our broader bilateral initiatives to promote 
science, renewable energy and entrepreneurship.
    Okinawa offers great opportunities for U.S.-Japanese 
investment and cooperation. The Government of Prime Minister 
Kan has recently made clear its commitment to the U.S.-Japan 
alliance and to our presence on Okinawa. President Obama said 
that this anniversary year represents an important opportunity 
to step back and reflect on what we have achieved, celebrate 
our friendship but also find ways to renew this alliance to 
refresh it for the 21st century. We are doing exactly that. 
Thank you, and I await your questions.
    [The prepared statement of Secretary Gregson can be found 
in the Appendix on page 41.]
    Mr. Ortiz. [Presiding.] Secretary Campbell.

  STATEMENT OF HON. KURT M. CAMPBELL, ASSISTANT SECRETARY OF 
 STATE FOR EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF 
                             STATE

    Secretary Campbell. Thank you very much, Mr. Chairman. And 
I thank all the members of the committee. It is an honor to be 
here today. Let me submit, if I may, my full statement for the 
record. And I also want to take a moment to thank my dear 
friend and colleague, Chip Gregson, for the honor to be able to 
work with him over these many years. I would also like to thank 
the comment made by the ranking member, Congressman McKeon. I 
think the point he underscored about the drama that is playing 
out in the Asia-Pacific region is something we should not 
forget. I spent a lot of time in Asia, traveled, talked with a 
lot of friends and there are continuing concerns about American 
preoccupation, that we are focused rightly on urgent challenges 
in South Asia and the Middle East. But the truth is there is a 
drama playing out in the Asia-Pacific region, and we need to 
demonstrate at all times to our friends and potential foes that 
the United States remains completely committed to the Asia-
Pacific region during this incredibly dynamic period in which 
global politics, global economics is increasingly shifting to 
the Asia-Pacific arena. With that as context, let me just say 
one of the things that has been underscored to us over the 
course of the last several years, is that the very foundation 
of our ability to operate in the Asia-Pacific region, in 
addition to the foundation for peace and stability and the 
ability for us to project power outside of the Asia-Pacific 
region resides in a strong, enduring partnership between the 
United States and Japan.
    As General Gregson has already stated, we are this year 
celebrating our 50th anniversary, the signing of the Treaty of 
Mutual Security between the United States and Japan. It has 
been essential to both of our countries, but not just Japan and 
the United States. It has been the central feature that has led 
to the most dramatic period of economic dynamism in the history 
of the world over the course of the last 30 years in the Asia-
Pacific region. And the U.S.-Japan security partnership can 
take substantial credit for that and it has served our 
interests, it has served the interests of Japan and other 
countries in the region very substantially.
    I think one of the things that has been critical has been 
that the alliance and the relationship has had very strong 
bipartisan support over a range of administrations and also 
between both parties in Congress. I think there is a deep and 
profound recognition that this relationship serves the 
interests of the United States, and indeed of our allies in the 
region. When President Obama came to power, he sought to 
underscore this essential reality. His first meeting with a 
foreign leader was with the Japanese Prime Minister, Prime 
Minister Aso, who has been subsequently replaced twice now, and 
also Secretary Clinton's first trip abroad included a first 
stop in Japan.
    Our consultations on a range of security and political 
issues over the course of the last 10 months, in particular, 
have been extraordinarily deep and detailed since the new 
Japanese Government has come into power. One of the things that 
we have been working on as General Gregson again has 
underscored, is the mechanisms of our alliance, how to secure 
and stabilize our forward-deployed forces in Okinawa. I also 
share the views of the members about how critical this forward 
deployment is of our Marine forces in Okinawa and the steps 
that are needed to secure that going forward.
    We have also worked very closely with Japan since the 
tragic sinking of the South Korean frigate, the Cheonan, by the 
brutal, provocative act on the part of the North Koreans. We 
have worked closely with the Japanese at every stage on 
extending OPCON [Operational Control] into the future with 
Korea on our maritime exercises that are now going on. Those 
exercises that you are seeing now at sea, most of those forces, 
most of those naval forces deploy from Japanese bases. We are 
grateful for that support going forward. We have also worked 
closely with Japanese friends on a dialogue about how best to 
engage a rising power in the Pacific. In China, we share a 
mutual interest in trying to assure that a rising China plays a 
strong and responsible role in the Asia-Pacific region. We are 
working closely to coordinate in Southeast Asia, trying to 
engage a very challenging and brutal regime in Burma. We have 
worked to deal with some of the political and security 
challenges in Thailand and a range of other countries.
    As the Chairman stated before he left, Japan has been one 
of the strongest supporters of our out-of-area engagements. 
Right now, Japan is number two in terms of monies committed in 
Afghanistan and they have also been behind the United States, 
extraordinarily gracious and generous in our activities in 
Pakistan as well. They worked with us in arenas such as piracy, 
and they have been very substantially engaged in new security 
challenges like climate change and other transnational issues.
    I would say that the alliance has become deeper, more 
entrenched, recent opinion polls in Japan reflect--and Japan is 
one of the most polled populations in the world. One of the 
things we have seen in recent months is that the percentage of 
Japanese citizens that support the United States and the U.S.-
Japan alliance are stronger today than in history, almost 80 
percent of the Japanese population supports the United States 
in our alliance. That is something that we have worked hard for 
and we are grateful for and we want to keep that strong support 
and respect going forward.
    This fall, when we celebrate the 50th anniversary formally, 
it will be an opportunity for us to look back and to celebrate 
and to reflect on our achievements, but we can't rest on our 
laurels. We have to think about going forward. This alliance is 
critical for the United States going forward. It bears 
repeating. It is truly our foundation and it gives us stability 
to be able to do the kinds of things that we seek to as a 
nation in the Asia-Pacific region. Thank you very much, Mr. 
Chairman. I look forward to taking your questions going 
forward.
    [The prepared statement of Secretary Campbell can be found 
in the Appendix on page 51.]
    Mr. Ortiz. Thank you, sir.
    Secretary Pfannenstiel.

 STATEMENT OF HON. JACKALYNE PFANNENSTIEL, ASSISTANT SECRETARY 
     OF THE NAVY FOR ENERGY, INSTALLATIONS, AND ENVIRONMENT

    Secretary Pfannenstiel. Thank you, Mr. Chairman, 
Congressman McKeon, distinguished members of committee. Thank 
you for the opportunity to report to you on the status of our 
planning efforts for the realignment of forces on Guam. And 
thank you for your continued support of our troops. Last week I 
had the opportunity to visit Guam and meet with several of the 
island's leaders and members of the community to discuss our 
Final Environmental Impact Statement, which is now available 
for public review. I was joined by Counsel on Environmental 
Quality Chair, Nancy Sutley, Assistant Secretary of the 
Interior, Tony Babauta, Deputy Under Secretary of Defense 
Dorothy Robyn, and representatives of other Federal agencies 
such as the U.S. EPA [Environmental Protection Agency] and USDA 
[United States Department of Agriculture].
    We took this trip together so that we could demonstrate 
firsthand to the people in Guam how critical it is for the 
Administration to get this effort right. It is this desire to 
get it right that brought agency leaders together to develop 
our Final EIS [Environmental Impact Statement]. Under CEQ 
[Council on Environmental Quality] Chair Sutley's leadership, 
we have successfully used the interagency process to address 
issues raised by resource agencies and the public on our Draft 
Environmental Impact Statement. Working together, we have 
satisfactorily resolved the most significant issues and have 
reached consensus in the Final EIS regarding how to handle 
these concerns.
    For example, we have decided in our Final EIS to defer our 
decision on the placement of the transient CVN [Nuclear-powered 
Aircraft Carrier] pier until we conduct additional Marine 
resources analysis. In addition, we have put forward a process 
for ensuring that the impacts of induced population growth do 
not overwhelm the island. Our Final EIS also identifies sources 
for nearly a billion dollars in improvements to Guam's utility 
systems, ports and roadways which will both prepare the island 
for the build-up and support its long-term growth. We are 
continuing to stay within the capacity--we are committing to 
staying within the capacity constraints of Guam's 
infrastructure, and will coordinate closely with Guam's 
leaders, Federal and Guam agencies and other parties to do so.
    As a result of this successful interagency coordination, we 
are confident we can sign a Record of Decision [ROD] and begin 
construction projects within this fiscal year. Central to the 
successful execution of this program is our ability to 
coordinate with key stakeholders on Guam and across the Federal 
Government. As discussed with Guam's leaders, our planning 
efforts do not end after the Record of Decision. We understand 
there is still more to be done. However, working together with 
Guam's leaders, we can ensure that conditions on and off the 
base will be comparable and we believe we can satisfactorily 
resolve issues such as land acquisition.
    As you can see, we have made great progress in our planning 
and are now ready to execute. Working with our agency 
counterparts and Guam's leadership, we are confident we can 
execute the program in a manner that achieves long-term mutual 
success. Thank you for the opportunity to testify before you 
today and for your continued support of this program. I look 
forward to your questions.
    [The prepared statement of Secretary Pfannenstiel can be 
found in the Appendix on page 58.]
    Mr. Ortiz. Thank you so much for your testimony this 
morning. And it is good to see you, Madam Secretary. We have 
had a great relationship with Japan. We enjoy their friendship 
and then, of course, we talk about the balance of power and 
having a forward presence. And I think that is very, very 
important. But Secretary Pfannenstiel, Secretary Gregson and 
Secretary Campbell, we want to say thank you for joining us 
this morning and explaining the efforts to move Marines to the 
strategic island of Guam and the ongoing developments with the 
Japanese Government.
    Madam Secretary Pfannenstiel, I have had the opportunity to 
travel to Guam several times, but most recently with Chairman 
Skelton to visit the beautiful island and it is nice. I wish I 
could stay there a few weeks and enjoy a vacation there. And to 
discuss, of course, the strategic importance of the movement of 
forces from Okinawa to Guam, I believe that the movement of 
forces is definitely the right thing to do. I did notice in 
your testimony that you recommended a whole-of-government 
approach be adopted to address community infrastructure 
limitations that exist in Guam today. Yet this is--from my own 
personal experience--I see no indication of this support from 
the other resource agencies when I look at the budget request. 
In fact, the only request from the Administration was from the 
Department of Defense to support a Department of Transportation 
requirement at the Port of Guam.
    What tangible steps has the executive branch taken to 
address the whole-of-government approach? And where are the 
budget requests from the various resources agencies to support 
the Marine Corps training bases requirement? I think this is 
very, very important. This is something we are going to see 
later on. Maybe you can enlighten us a little bit.
    Secretary Pfannenstiel. Yes, thank you, Mr. Ortiz. We are 
working with the other agencies, the other resources agencies, 
other Federal agencies, to look at the whole of Guam, to look 
at the needs across the infrastructure, across the business 
community, and we have done so in a couple ways. First, we 
worked very specifically with the resources agencies in 
developing the Final Environmental Impact Statement. And we 
aligned our interest and our program so that we not only 
overcame the concerns with the Draft Environmental Impact 
Statement in such a way that the resources agencies were 
supportive of where we ended up. But we also are looking 
towards going beyond what is just the minimum necessary.
    There is a group called the Economic Adjustment Committee 
that is working within the Department of Defense looking across 
Guam at the economic impact, not just the environmental impacts 
associated with the buildup and looking at what level of 
funding might be needed and where it might be available. So 
that is work that is ongoing.
    Mr. Ortiz. I wonder if anybody else, Secretary Gregson or 
Campbell, would like to add or maybe respond to my question? 
Have you seen any other agencies that is going to--coming up 
with a budget request because we haven't seen one yet?
    Secretary Gregson. I can pass a more detailed report back 
for the record later, but I am aware that the Department of 
Agriculture helped contribute to the resources necessary to 
rehabilitate the port facilities, and we are in discussion with 
the Department of Transportation for other resources.
    [The information referred to can be found in the Appendix 
on page 67.]
    In addition, part of the Japanese money that is pledged for 
the buildup in Guam is some $740-some million dollars for 
utilities and on a most urgent need basis, the first projects 
that will be undertaken with those resources are rehabilitation 
of the Northern District wastewater treatment plant and the 
Agana wastewater treatment plant. These are judged the most 
critical infrastructure improvements needed to support the 
temporary workforce that is going to be doing the base 
construction.
    Secretary Pfannenstiel. I could add, in addition, that we 
have been working with the Department of Energy on some 
possible renewable energy investments on Guam, either for a 
pilot program or, in fact, to replace some of their existing 
generation.
    Mr. Ortiz. Another thing that worries me is when you have 
an increase in population because of the Marines coming in 
there. What are we going to do about hospitals and health care? 
And then at the same time you did mention transportation, but 
do you think they are going to come across, they are going to 
be able to provide those services that are very essential?
    Secretary Pfannenstiel. We have been, and we will continue 
to look at the roads and the roadways for Defense Access Road 
funding as necessary. And we have money in the fiscal year 2010 
and proposal fiscal year 2011 budget for that. As for the 
health care problems of the increased population, the workers 
who will be coming to the island from off-island, the way that 
health care will be taken care of is through the contractors 
who bring them there. That is part of the requirements of the 
contractors is that they provide health care for the workers.
    As for the Marines coming, we have dollars programmed for 
the hospital improvement for the base. So that will also be 
part of the program that we have going forward.
    Mr. Ortiz. So when we talk about the health needs of the 
people coming in to work, the money will come in through the 
contract that we give them, and they will get a portion of that 
money on the contract to pay for the health care?
    Secretary Pfannenstiel. Yes, the contractors are required 
to provide health care for their workers. And they will have to 
do that through the contracts that they sign.
    Mr. Ortiz. I have other questions, but I will wait. I would 
like for my other colleagues. I yield to my good friend, Mr. 
McKeon.
    Mr. McKeon. Thank you, Mr. Chairman. Secretary Gregson, 
Secretary Campbell, as you know, this committee has been in 
full support of the Defense Policy Review Initiative and the 
move of the 8,000 Marines and their families to Okinawa. While 
we have had questions about training opportunities for those 
Marines and the adequacy of the new Marine airfield at Camp 
Schwab, we have not wavered. At this point, we have seen one 
Japanese Prime Minister from the newly elected Government delay 
his decision on the airfield and ultimately resign over the 
siting of the Futenma replacement facility. And now the new 
Prime Minister is reportedly engaged in a similar delay. Is the 
so-called expert group still making progress on a mutually 
agreeable solution to the FRF that protects the equities of the 
Marine Corps? What is the way ahead if we cannot agree on the 
FRF?
    Secretary Gregson. The experts group is, in fact, meeting 
as we speak. This is about the third or the fourth in a series 
of meetings and more are scheduled. Yes, they are making 
progress. A going-in condition is that all of the requirements 
necessary for the operation and the functioning of the airfield 
be met. The subsequent discussions can involve details of the 
method of construction, the exact configuration of the airfield 
and the other infrastructure needed.
    But let me stress, Mr. McKeon, in response to one of the 
thrusts of your questions, that a going-in condition that is 
necessary to be present throughout any other considerations is 
that all of the operational requirements be met. And we have 
every expectation that we will have results on schedule by the 
end of August.
    Secretary Campbell. Let me just add one thing if I could, 
Congressman, to that. One of the first things that the new 
Prime Minister, Prime Minister Kan, underscored when he took 
office as the Prime Minister late in the spring was that he 
would stand by the agreement between the United States and 
Japan, and he thought that that was, indeed, the foundation for 
our partnership going forward. And so we actually have 
substantial confidence in both the public and private 
reassurances that we received from the Japanese Government.
    It is also the case that there are a number of very 
challenging political issues that are going on domestically in 
Japan and we have sought simultaneously to be understanding 
about those political dynamics, but also to be quite clear and 
firm about what our needs and expectations are going forward.
    Mr. McKeon. Thank you. The reason we have installations in 
Japan and negotiated this latest agreement is to assure the 
forward presence of our forces in a strategically important 
area of the world. The two principal threats in the Pacific 
region today are North Korea and China, though the threat posed 
by each is very different. Given the reluctance of this new 
Japanese Government to fully embrace the agreement to realign 
forces on Okinawa, can we be confident the Japanese will allow 
use of our bases should North Korea provoke a crisis requiring 
a military response? No less important given the dire state of 
the Japanese economy, the importance of China as a trading 
partner and the recent quadrupling of Chinese investment in 
Japan, are we confident that the Japanese Government would 
allow us to use our bases to undertake an action that the 
Chinese disapproved of?
    Secretary Gregson. We are absolutely confident we would be 
able to use Japanese bases in response to a North Korean 
threat. The recent Cheonan incident did nothing to diminish 
Japanese concern about the North Korean threat. Looking back 
over time, the Japanese have suffered at the hands of North 
Korea with having their citizens kidnapped, and with incursions 
into their territory.
    There is a monument in Japan that is very frequently 
visited of a North Korean infiltration vessel that was sunk a 
few years ago by the Maritime Safety Agency in Japanese 
territorial waters attempting an infiltration. I have no doubt 
that they are fully aware of the threat from North Korea and 
fully supportive of all of the provisions of our treaty to 
support operations, should they be necessary in Korea. On 
China, China is a valuable trading partner for Japan, just as 
China is a valuable trading partner for us. I think the 
attitude is similar, that we seek a cooperative, constructive 
relationship with China for all the right reasons, but we 
remain concerned about many other aspects. China's 
extraordinary military build-up, various actions that China has 
taken without as we judge satisfactory explanation. So I would 
judge their approach to this as similar to ours.
    At the same time, they have--and Secretary Campbell can 
expand on this--at the same time, they have disputes--wrong 
word--they have items of concern with China over mineral rights 
in the East China Sea and through and on various territorial 
claims. So the attitude there is one of, I think, proper 
concern.
    Secretary Campbell. Congressman, I would simply say that, 
first of all, I agree with General Gregson about the confidence 
that we have in our partnership on the security side with Japan 
and the confidence we would have in a crisis. I think one of 
the things that the new Government has asked for in Japan is a 
closer consultation on issues associated with the potential use 
of force. I think it is fair to say that sometimes previous 
governments in Japan have been very comfortable to leave those 
decisions largely to the United States. And they have not been 
deeply engaged in some of the very quiet consultations. The new 
Government that has come to power, the DPJ [Democratic Party of 
Japan], wants to play a closer and deeper role with the United 
States on some of these consultations and we have to adjust and 
adapt to that. We have been seeking to do so as we go forward. 
I would simply say on the China front, it is true that Japan 
and China have had substantial tensions on and off over the 
course of the last many years.
    And I think one of the things we have seen in the recent 
period is the Japanese Government has sought to build a better 
relationship with China. And some have suggested that this 
potentially comes at the expense of the U.S.-Japan security 
relationship. We don't think that is the case. We think that 
our relationship will remain very strong, and we do have an 
interest in Tokyo and Beijing improving relations, establishing 
more trust and trying to get beyond a history that, in some 
respects, has been quite challenging.
    So overall in terms of our assurances and commitments, we 
feel quite well served by the security partnership and we think 
it will endure as sort of the guiding framework for how we do 
business in the Asia-Pacific region.
    Mr. McKeon. Thank you very much.
    Mr. Ortiz. The chair recognizes Mr. Snyder from Arkansas.
    Dr. Snyder. Thank you, Mr. Chairman. Mr. Skelton is not 
here, but both Mr. Skelton and Mr. McKeon have been pushing in 
a bipartisan manner to get the supplemental done, and I saw it 
on the suspension calendar today, and hopefully we will get 
that work completed this week. I don't have much time. We are 
now on the clock. So I need you all not to do expansive 
answers, but quick answers because I have four questions. The 
first one to you, Secretary Gregson.
    The Japanese are about to complete their first foreign 
military base outside of Japan since World War II in Djibouti. 
It seems to me that it is a win-win situation. It is a win for 
the international community because the Japanese know how to 
patrol coastlines and the full focus of this base is piracy, 
and it seems like a win for the Japanese people in that it is 
consistent with the constitutional restrictions on waging wars 
since it is clearly targeting piracy, do you agree with that 
analysis?
    Secretary Gregson. Yes.
    Dr. Snyder. Secretary Campbell, what does it mean in terms 
of continuity of policy and the challenge for the Japanese 
Government and the Japanese people to have four prime ministers 
in two years? It is their form of government and every form has 
its own inadequacies. But four prime ministers in two years, 
what kind of challenges has that presented for them in defense 
policy?
    Secretary Campbell. I will try to be very quick with it. 
Thank you very much. Very good questions. Look, it is important 
for us not to comment publicly on domestic dynamics of a close 
ally. I think we can say, however, that rapid turnover in prime 
ministers and ministers makes it very difficult to establish 
the kinds of relationships and the confidence that is necessary 
in government. Government is about institutions, but it is also 
about individuals. It is hard to build up that kind of 
understanding about how people will operate in certain 
circumstances. So it does raise some concerns for us. And that 
is why we often ask what is the stability of this person or 
that or this institution. We would very much like to see some 
continuity in Japanese politics, not just for the U.S.-Japan 
security relationship, but also for the important work that 
needs to be done on the economic and other sides inside Japan.
    Dr. Snyder. Secretary Campbell, any comment you want to 
make on this issue of trying to resolve the unresolved 
territorial disputes over islands? I think the specific one--
and I cannot pronounce the names--I think in the Japanese it is 
the Senkaku Islands. Any comment about that in view of 
Secretary Clinton's comments a few days ago?
    Secretary Campbell. I would refer you to the comment, very 
clearly worded statement that Secretary Clinton has underscored 
at the ASEAN [Association of Southeast Asian Nations] Regional 
Forum in Vietnam. I should just simply say that the United 
States stands very strongly behind our security assurances and 
guarantees to our allies in the Asia-Pacific region.
    Dr. Snyder. In terms of the development of the area, it is 
fair to say that as long as there are territorial disputes, the 
development of those areas is held back. Is that a fair 
statement?
    Secretary Campbell. Certainly in the South China Sea, that 
has been one of the challenges. What Secretary Clinton tried to 
lay out in Vietnam is a very clear U.S. statement that 
maintains and underscores our traditional desire to maintain 
freedom of navigation, freedom of the seas. We also believe 
that the appropriate and legal opportunities for economic 
commerce and extraction of mineral resources is important. And 
we seek that those operations can be conducted without fear of 
political or other kinds of pressure.
    Dr. Snyder. And my last question to you, Secretary 
Campbell. And this is an Arkansas-based question, because of 
the great service of Senator Fulbright with regard to the 
Fulbright scholarships. Of course, there are other programs, 
the Mansfield program. Do we have an adequate number of 
exchanges at the student level between Japan and the United 
States, or would we benefit from more? How do you see those 
numbers today?
    Secretary Campbell. Let me just underscore, these are 
excellent questions, and it is a source of very real concern to 
me that the number of Japanese students that come to the United 
States over the course of the last few years to study has 
fallen off a cliff and the number of Americans that are going 
to Japan to study in the JET [Japan Exchange and Teaching] 
program and other programs have also gone down.
    Dr. Snyder. Why is that?
    Secretary Campbell. I think there are a variety of reasons. 
I think there have been some economic issues on both sides. I 
think there are some other areas of interest. But it is 
absolutely clear, given how strong the partnership is between 
our two countries that we need to recommit ourselves to 
programs like Fulbright, like the JET [Japan Exchange and 
Teaching] program. We need continuing support from the Japanese 
Government's other foundations to ensure that our young people 
are building strong ties with our most durable and strongest 
Democratic partner in Asia.
    Secretary Gregson. I would like to very briefly and 
heartily endorse those comments.
    Dr. Snyder. Mr. Chairman, may I ask a follow-up question? 
Is the problem funding from the--is there something we need to 
be doing or is it a lack of interest?
    Secretary Campbell. No. Funding issues are quite 
substantial on both sides in this environment, yes.
    Dr. Snyder. Thank you. Thank you for your indulgence, Mr. 
Chairman.
    Mr. Ortiz. My next question is do they have problems 
getting visas to come? The reason I ask is because we had a 
group of businessmen who want to come and invest here in the 
United States, it took them six, seven months to get a visa. I 
am just wondering if the students go through the same problem?
    Secretary Campbell. I would say, again, thank you very 
much, Mr. Chairman. I had the honor of working in the Pentagon 
for many, many years. It is my first opportunity to work at the 
State Department. The thing that has surprised me the most in 
my work to date is how often, how regular I hear from foreign 
friends, particularly friends in Asia, how difficult it is for 
businessmen, students, even people in the government to travel 
to the United States through visas and other problems. And we 
try very hard to work on these problems but it has been much 
more challenging than I had anticipated.
    Mr. Ortiz. Anything you can do to help out because we know 
there is a lot of young students going to other countries, even 
though they would like to come to the United States, but it is 
so hard for them to get a student visa to come to the United 
States. Now, the chair recognizes the gentleman from Maryland, 
Mr. Bartlett.
    Mr. Bartlett. Thank you, Mr. Chairman. Secretary Campbell, 
you mentioned very positive polling in Japan relative to their 
relationship with the United States. I wonder if you can 
discuss with us just a bit the similar polling in Okinawa, 
because that is where the current problems are focused.
    If you will, differentiate between generic support for 
Japanese-American relations and specific support for what we 
want to do in Okinawa.
    Secretary Campbell. I will answer the question generally, 
Congressman, and then I will ask General Gregson to expand upon 
that. I think it would be fair to say that there is generic 
much higher support for the overall aspects of the U.S.-Japan 
alliance and the United States in terms of Japanese polling. 
And there probably is less strong support but still quite 
strong in Japan for certain aspects of the situation on 
Okinawa. That being said, I think there is also a recognition 
that at a fundamental level, the maintenance of a strong 
security relationship between the United States and Japan, of 
which I would argue, and I think many in Japan recognize that 
the ability to sustain a Marine presence in Okinawa is central, 
overcomes some of the issues that have traditionally caused 
problems in terms of the kind of public attitudes and public 
polling.
    I will also say that under General Gregson's leadership and 
others, that the United States Government and Japan have taken 
enormous steps to try to not only ease the burdens but create 
greater opportunities and build deeper partnership between 
Americans and the Okinawan people. General Gregson talked about 
the Obuchi fellowships. We need to do more, but overall, I 
think the attitudes have improved substantially in the last 
decade or so.
    Secretary Gregson. Thank you for the question, Mr. 
Bartlett. Sometimes anecdotes, although dangerous, are 
illustrative. In 2000, I moved to Okinawa. One of my first 
requirements, or one of my first duties was to represent the 
Department of Defense at the rollout of the Obuchi Fellowship 
as a result of the Obuchi-Clinton Summit. I was stunned by the 
gratitude of the Okinawans my age, the parents, that the United 
States saw fit to provide this scholarship for Okinawan 
students to study in the United States. They have a huge regard 
for education.
    As I mentioned in my oral remarks, Okinawa's particular 
history, Okinawa's particular vital strategic location has 
conspired to make the conversation about Okinawa primarily 
about military matters. The door is wide open, and Ambassador 
Roos, our Ambassador to Japan, is running through it to create 
cooperative U.S.-Japan bilateral programs to bring needed 
educational, entrepreneurial development to Okinawa and this is 
entirely proper and will do nothing except build on the already 
strong relations between the American community and the 
Okinawan community.
    There are items of concern between the two communities, but 
I can assure you that the relationship and the cooperation 
between the Americans on Okinawa and the Japanese citizens 
living on Okinawa vastly exceeds its reputation in the media. 
It is warm, it is friendly, it is supportive. Like the U.S. 
does, every place that we are stationed, we need to take better 
care of the population that surrounds our bases there, and we 
need to have better and stronger bonds with them. The Obuchi 
Fellowship, the educational programs that Mr. Ortiz mentioned, 
these types of things are most valued by the Okinawans, most 
valued by the Japanese and most valued by our Asian friends all 
over. This is not a one-way thing. Bringing these students to 
America enriches our schools, is in our interest.
    I second Secretary Campbell's comments about doing whatever 
we need to do to ease the visa application process for students 
from these countries to study in the United States and to 
establish exchange programs where our students can study in 
their country.
    Thank you.
    Mr. Bartlett. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Ortiz. The gentleman from North Carolina, Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman, and thank you, folks, 
for being here today.
    Madam Secretary, you said in your remarks the importance in 
what we are doing for the Administration to get it right, as we 
proceed. Are we getting it right?
    Secretary Pfannenstiel. Yes, sir, I believe that we are. I 
think that working together with the Federal agencies but with 
the Government of Guam on what their needs are and how this can 
work for them. I think that the Draft EIS that came out was 
weak in several areas, and I think that by bringing together 
the people from the Federal agencies who are involved in this 
but also going out to Guam as we have done several times now to 
meet with the Government of Guam, the agencies in Guam, to talk 
to the people, see what the needs are, I think that the plan 
that is being brought together now will work for the people of 
Guam.
    Mr. Kissell. And this will happen on a timely basis, is the 
time that we need for it to happen?
    Secretary Pfannenstiel. Yes, sir. We have agreed that the 
program going forward will be paced according to the 
infrastructure capabilities of Guam. Therefore, if we are able 
to move faster than we have projected, if the infrastructure 
allows us to move faster with the construction, we will do so. 
If we need to slow down parts of it, we will do that. But we 
will pace our--both the construction and the movement of forces 
to the capabilities of the island.
    Mr. Kissell. Thank you.
    Secretary Campbell, you talked about that the concerns of 
some of the people in the Pacific-Asian part of the world, that 
the United States may, as you said, rightfully so, be focused 
in other areas, but there are a lot of things taking place 
there that should be of interest to us.
    Is there anything in particular that you feel has taken 
place that we are not paying enough attention to in terms of a 
way that it will become an issue sooner or later down the road?
    Secretary Campbell. Let me try to answer the question this 
way, if I could, Congressman. I think if you ask most 
Americans, and in fact most people in the executive branch, 
what is the most challenging issues that we are facing right 
now, most people will say, look, really, it is in the Middle 
East, it is in Afghanistan, it is in Iraq, issues that are 
deeply difficult, challenging, nation-building, issues 
associated with proliferation, questions associated with 
dealing with Al Qaeda and other radical groups.
    If you look back on this period in 20 or 30 years, I think 
what we might find is the historians will view this period is 
that the bigger drama is actually what is playing out in the 
Asia-Pacific region, a dramatic rise in economic and political 
and strategic capabilities of which the United States has been 
involved but perhaps we have been involved in other areas 
geographically more.
    I think my overall general concern would be that the key 
institutions of our Government--the executive branch, the 
legislative branch and, in fact, others--need to recognize--and 
I think, generally, we do--that the Asia-Pacific region has an 
enormous amount of drama playing out and that the scarcest 
resources in our Government is really the time and attention of 
our senior-most people.
    And I would just simply underscore for you, look at the 
number of hearings that are held up on Capitol Hill and explore 
how many are done on the Asia-Pacific region in comparison 
with, for instance, the critical issues that we are facing 
elsewhere. So that is one of the reasons I think this sort of 
hearing is so welcome and it is so appropriate.
    Mr. Kissell. Thank you, sir, and thank you, Mr. Chairman.
    Mr. Ortiz. The gentleman from Colorado, Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    I think I have got two questions related to our forces in 
Okinawa and the difficulties that we are confronting there.
    And I think the first question is to the strategic 
importance of how having those forces there and couldn't we 
accomplish the same in terms of our presence in the Asian-
Pacific theater as--doing joint maneuvers, bringing our forces 
over periodically, and particularly when conditions warrant in 
terms of concerns about the stability of the region, and then 
putting forces in play, as opposed to having a permanent 
presence?
    And the second question is related to that, and that is 
that if, in fact, in a worst-case scenario, given the trend 
line in terms of Japanese politics that seems to be 
increasingly opposed to having our permanent presence in 
Okinawa, what is the alternative in terms of placing those 
forces on U.S. soil? We are obviously looking at 8,000 now in 
Guam. We would still, I understand, have 10,000 in Okinawa if 
that is the appropriate number. Are there facilities that could 
absorb that population in Hawaii and in California say at Camp 
Pendleton in California?
    Secretary Gregson. Thank you for the questions. I think 
they are quite apt.
    Our forward presence, our forward stationing makes a 
political statement long before it makes a military statement; 
and the basing arrangements that we share with Japan provide a 
profound political and strategic anchor for our positions 
there.
    As to the position of Okinawa, Okinawa has been blessed or 
cursed, depending on the point of view, with being in a 
tremendously strategic location. Having our forces on Okinawa 
allows us to react to many things very quickly.
    Short of war, the many activities that go on from Okinawa 
in the areas of disaster response indicate one of the many 
values of having forces forward. The first 24 hours in response 
to fire, flood, volcano, tsunami, forest fire, whatever, have 
proven to be exceptionally valuable; and our ability to project 
force quickly and bring aid to those who are in dire straits as 
a result of some natural or potentially manmade incident make a 
profound statement on our commitment and our capabilities to 
both friends and others alike in Asia.
    So I would state that our position, our forward presence in 
the Pacific is important. I think the importance is growing. I 
would argue that we need more, not less, in the future, given 
the way things are developing.
    Besides Northeast Asia we also need to worry about 
Southeast Asia and, increasingly, South Asia and the Indian 
Ocean area. All of these things are considerations within the 
realignment.
    Within Okinawa, the particular situation on Okinawa, the 
battle started April 1, 1945; it ended about June 23. Most of 
our forces were in the southern part of the island by the time 
it ended, so most of our bases grew up in the southern part of 
the island.
    Since that time, Okinawa has had tremendous growth. Most of 
the population lives in the southern third of the island. As 
part of the realignment, we are not only moving part of the 
Marines to Guam but we are closing all or portions of the base 
or all of the bases south of Kadena Air Force base, meaning we 
get the military presence away from the most crowded, urbanized 
area of Okinawa and into an area that is much more conducive to 
our operations and much more conducive to the further 
development of the economy, the businesses in Okinawa.
    The movement to Guam repositions not just Americans but it 
repositions alliance forces. We will be providing on Guam for 
the continuous presence of Japanese air and ground units and 
naval units for training, bilateral training, with the United 
States. Secretary Gates has said that our facilities in Guam 
and other nearby areas in the Pacific, the Commonwealth and the 
Compact Islands, will be increasingly bilateral in nature, 
enabling us to do extraordinarily sophisticated training with 
our allies and friends in areas that are relatively 
unencumbered by urban sprawl and the other things that make 
training in other places much more difficult.
    I see this as not only a positive development on the 
political and the strategic side but eventually this will 
contribute greatly on the operational side, enabling our 
alliance forces to operate much more effectively and much more 
efficiently together.
    Thank you.
    Mr. Coffman. Mr. Chairman, if I could, the second question 
as to relocation of our forces, if he can answer that, Mr. 
Chairman.
    Mr. Ortiz. Sure. Go ahead and answer that question.
    Secretary Gregson. As far as our ability to remain base-
forward?
    Mr. Coffman. As an alternative to relocate those forces on 
U.S. soil.
    Secretary Gregson. Relocating to U.S. soil would put us 
days away from most confrontations. I think between Hawaii, 
Guam, and Japan and the sustainment base in the United States, 
we achieve the ability to best balance force generation, force 
development with forward positions, forward-deployed forces 
ready to react immediately.
    Secretary Campbell. Congressman Coffman, I can think of few 
decisions that we would regret more than pulling back our 
forces from the Asia-Pacific region. It is not only that they 
are able to respond more quickly militarily and strategically, 
but it is also really the political role they play.
    Asia is extraordinarily, acutely aware of our forward-
deployed forces. I know that these kind of comparisons are 
difficult to make, but it is very much like a neighborhood that 
is a little bit uncertain, and if you are seeing a patrol car 
there on a very regular basis, it is reassuring. That is the 
role that American forces play in the Asian-Pacific region and 
will play for years, perhaps decades, to come. I can think of 
no more important commitment to maintain than our forward-
deployed capabilities.
    Thank you.
    Mr. Ortiz. Mrs. Davis, the gentlelady from California.
    Mrs. Davis. Thank you, Mr. Chairman. Thank you all for 
being here.
    I appreciate the discussion of trying to--I don't know 
whether it is refocus, because that is not exactly what you are 
saying, except that our attention really shouldn't stray I 
think from the relations there. And, clearly, there have been 
some bumps in the road over the years, and I think that all of 
the people that we work with acknowledge that but are very 
strong in their continuing support.
    I wondered if you could address--I don't know if this has 
even come on your radar necessarily--the issue of the rise in 
the Japanese yen and the impacts that can have, not so much in 
I think in specific relationships that you have been discussing 
but going beyond that in terms of exchanges and even the 
opportunity for Americans to travel to Japan now, which I 
understand has been literally cut off because of the cost.
    Can you address that? Is that something that is of concern? 
And is there any way that we might look at this and be aware of 
it as a concern? There are pluses and minuses, of course, to 
that rise. But I wonder if you could address that.
    Secretary Campbell. Can I just say that one of the things 
that--one of the operating procedures of every Administration, 
Republican and Democrat, now for decades, is that there is 
really only one institution of government that speaks about 
currency matters, and that is the Department of the Treasury. 
My wife happens to be the Under Secretary, so she reminds me of 
this on a regular basis. So I think the better part of valor 
would be to ask you to direct those questions about any 
currency issues between the United States and other currencies 
in Asia to appropriate folks inside the Treasury.
    Thank you.
    Mrs. Davis. I appreciate that, but I think it was brought 
to my attention just recently and I was really quite surprised 
to hear the difficulty with which we could have exchanges in 
the future. So it is something that we might want to think 
about.
    Could you comment in a little more detail on the Status of 
Forces Agreement and the discussions around that as it relates 
to our forces there in Japan?
    Secretary Gregson. The Status of Forces Agreement is raised 
periodically. In the past, upon examination, calls for revision 
of the Status of Forces Agreement generally fall away in favor 
of improving the implementation of the Status of Forces 
Agreement.
    Our Status of Forces Agreement with Japan has proven 
extraordinarily durable in the past. In my past life, one of my 
most valuable officers was somebody called the Foreign 
Jurisdiction Officer; and this person would be involved in 
working-level negotiations upon any incident that fell within 
the purview of the Status of Forces Agreement. No matter how 
strictly we write it, something is always going to happen that 
is not quite anticipated in the Status of Forces Agreement.
    It is currently not one of the items that is a matter of 
current discussion with Japan. It may come up again in the 
future. If so, we will discuss it in a close, collaborative, 
and forthright way with our Japanese colleagues, as we have 
before.
    Mrs. Davis. Thank you. I appreciate that response.
    We all have some opportunity I think to have discussions, 
whether it is with the Embassy, Japanese Embassy, the 
Ambassador, and also certainly among any of the 
Parliamentarians from Japan, and I think one of the issues that 
does could tend to come up is financial obligations as it 
relates to Guam and certainly to Okinawa. And I am just 
wondering, is there anything in particular you think that would 
be helpful or even hurtful for Congress to convey to our 
counterparts when we are in discussions with them? What would 
you like us to be talking mostly about?
    Secretary Gregson. On the financial contributions within 
Japan, we are in host nation support discussions with our 
Japanese colleagues now. The current host nation support 
agreement which calls for some $1.7 billion per year runs out 
in 2011. We are looking for another 5-year agreement.
    I would offer that, from our point of view, the $1.7 
billion, almost all of which cycles through the military and 
comes back to Japan in the forms of salaries for workers aboard 
the base, to include, interestingly, emergency services--fire 
departments, paramedics, security guards are all local 
employees.
    It is also cycled back to the Japanese in forms of 
construction and services. So this is support to the U.S. 
forces, yes, but, again, the vast majority of it is 
reinvestment back in Japan.
    To the investment in Guam, this agreement was arrived at 
over at least 5 years of negotiations. Secretary Campbell and I 
were present at the initial incarnation of this from 1996 on, 
so one could say that this agreement has been arrived at over 
14 years and the financial considerations were very carefully 
considered.
    And this is also an opportunity investment for Japan. Part 
of their money goes directly to the U.S. Treasury, yes, for us 
to spend as we see fit, but another large part of the money 
goes towards utilities and housing, which the Japanese are 
looking at as an investment not only for eventual 
recoverability perhaps in the future but also as a way to 
highlight and showcase Japanese leading-edge technologies in 
the area of, for example, renewable energy generation. This is 
also supporting U.S. forces that are sworn to defend Japan.
    So it is a bargain in that case, and it is also an 
agreement openly arrived at and, at least with the colleagues 
that we are talking with and the negotiations we are doing over 
Guam and other matters, willingly supported.
    I would add that with all the worries about Japan decision 
making, Japan re-examining decisions that they have made, every 
financial contribution they are obligated to make to date, and 
the next one is in the works now, and we are trying to figure 
out how to solve the notes and get it in there--there are no 
issues blocking it. We are just going through the bureaucracy 
to get the transfer of notes done. So all of this is a positive 
story.
    Mrs. Davis. Thank you.
    Mr. Ortiz. The gentleman from South Carolina, Mr. Wilson.
    Mr. Wilson. Thank you and thank you all for being here 
today. I am so happy we are discussing our relationship and 
partnership with the people of Japan. We are appreciate them so 
much.
    My family has a special appreciation of Okinawa. My late 
brother-in-law received the Navy Cross for helping seize Shuri 
Castle there. And I have visited, and it is just--again, the 
people of Okinawa, Japan, we greatly appreciate.
    But as we are thinking about restructuring at Okinawa to 
Guam--and I have been very fortunate to have visited Guam 
several times with Congresswoman Bordallo. How extraordinary, 
how patriotic the people are, of Guam. They have, of any 
American State or territory, the highest percentage of 
membership in the National Guard of any State or territory of 
the United States. The people are very, very patriotic; and the 
strategic location of Guam is so important to maintain and 
promote peace in the Pacific.
    With that, as we are hopefully going to be relocating 
troops and Marines, Secretary Pfannenstiel, does the Marine 
Corps support the realignment? And what are the plans for off-
island and off-territory training?
    Secretary Pfannenstiel. Thank you, Congressman.
    Yes, the Marine Corps does support the movement. I think we 
are making sure that the needs of the Marines, both in terms of 
housing and facilities and training ranges, are met and that 
the facilities that are in Guam are adequate.
    In terms of off-island training, there has been some 
discussion. The major issues tend to be logistical. If you are 
moving the Marines to Guam, trying to train, for example, on 
Tinian becomes just a logistical and, to some extent, a very 
expensive problem, trying to move people as needed. So the 
primary focus and what we are working on right now is to 
develop the necessary training bases on Guam.
    Mr. Wilson. And for families, too, it has been--I was so 
impressed. I have a son serving in the Navy as a doctor, and I 
would be thrilled if he and his family were there at Guam.
    General Gregson, again, our relationship is so important 
with the people of Japan and Japan has a real commitment to 
nuclear nonproliferation. Does this complicate its being 
included in the U.S. nuclear umbrella?
    Secretary Gregson. Thank you for the question.
    No. The short answer is no. I don't think it complicates 
Japan--the United States commitment to extend a deterrence with 
Japan.
    I would also note that Japan has been a very active 
supporter of the proliferation security initiative and has 
actually held some exercises with this in cooperation with the 
United States. In the wake of recent North Korean actions, both 
last year and this year, we have taken pains to assure Japan of 
our commitment to extend the deterrence.
    Secretary Campbell. Thank you, Congressman. I would say two 
things.
    I think it is also the case that particularly the current 
Government, the Prime Minister, the Foreign Minister, and 
others, have very much welcomed efforts by the United States to 
diminish the role of nuclear weapons in global politics. So 
they, as the only country to have experienced the tragedy of 
nuclear use, they appreciate that commitment, recognize that it 
is a distant one. But, at the same time, given the neighborhood 
and world that we live in today, the desire on the part of 
Japan and the United States to underscore that the deterrence 
of the U.S. nuclear umbrella over Japan remains robust and 
strong is extraordinarily important; and we try to underscore 
that in all of our statements and all of our private 
consultations with our Japanese friends. So they maintain both 
these goals and desires to diminish the role of nuclear weapons 
but also to recognize that extended deterrence on the part of 
the United States over Japan is an absolutely essential 
component of their overarching security needs.
    Mr. Wilson. As we conclude, another deterrence is a missile 
defense system. And I sincerely hope that we are making every 
effort to work with our Japanese allies to develop the most 
effective. We are dealing with an irrational situation in North 
Korea. I have actually gone and visited Pyongyang with Chairman 
Ortiz. And so we need--the best way to preserve peace in 
Northeast Asia truly to me is a very effective missile defense 
system.
    Thank you, Mr. Chairman.
    Mr. Ortiz. The gentleman from Mississippi, Mr. Taylor.
    Mr. Taylor. Thank you, Mr. Chairman.
    I would like to open this up to the panel. I am curious 
what the Japanese Government reaction was to the sinking of the 
Cheonan. Has it called for any changes within the Japanese 
defense forces? Has it led to any additional concerns? I just 
open that up.
    Secretary Campbell. Congressman, to many friends in Asia, 
alas, it did not come as a surprise, given the very provocative 
actions we have seen over decades from North Korea. I think 
sometimes we forget the takedown of the Korean Airlines, the 
brutal attack against the cabinet in which most were killed. 
These were all perpetrated by the North Korean Government.
    I think it would be fair to say that it has led to much 
stronger consultations on the part of the United States and 
Japan and South Korea. We met trilaterally last week in Seoul 
to underscore the steps we are taking. General Gregson has had 
a number of meetings with his counterparts.
    I think you will be seeing, particularly in South Korea, 
very clear commitments to new procurements in the arena of 
anti-submarine warfare and other kinds of military 
procurements.
    Japan has made similar commitments, and I think you are 
going to see a renewed effort at exercises and other training 
designed to protect against these kinds of attacks, both from 
the blue or from the lurking submarines; and it is also a 
reminder of the importance of vigilance just across the 
spectrum in the Asian-Pacific arena.
    Secretary Gregson. There are historic problems between 
Korea and Japan. But I would add, in addition to Secretary 
Campbell's remarks, that trilateral cooperation in the security 
arena really accelerated after last year's North Korea nuclear 
episode and has continued to accelerate and has been given even 
more impetus by the sinking of the Cheonan, which served as a 
reminder to all of us that that is a very dangerous 
neighborhood that we all live in.
    Mr. Taylor. General, if I could, there are, as we sadly 
know, copycat crimes. You would imagine there would therefore 
be copycat terrorism. So if there is a successful act 
somewhere, perpetrators get away. Who is tracking the 
proliferation of that type of submarine by the North Koreans? 
Who are they selling them to? How many are they making? Where 
are they going?
    Secretary Gregson. We have an extensive effort to track 
North Korean arms sales. I would be happy to provide details 
for the record.
    Mr. Taylor. If you would, please.
    Secretary Gregson. Okay.
    [The information referred to can be found in the Appendix 
on page 67.]
    Mr. Taylor. Thank you, Mr. Chairman.
    Last question, if I may, I still have a couple minutes. 
Tell me what, if anything, is the Japanese Government doing to 
participate in our efforts in Afghanistan?
    Secretary Gregson. The Japanese are the second-largest 
contributor to our efforts in Afghanistan. Their financial 
contributions--their previous financial contributions helped to 
rebuild the Afghan Ring Road and to pay the salaries of the 
Afghanistan National Police. They pledged an additional $5 
billion that will go to support the pillars of our--many of the 
pillars of our Afghanistan policy and strategy, the 
reintegration, the development, education, a number of things. 
We are very happy with Japan's contribution there.
    And I would add also that Japan is a contributor to the 
maritime security operations in the Gulf of Aden in the North 
Arabian Sea, and they also provide forces for a number of U.N. 
security missions that we support.
    Secretary Campbell. The truth is, if I could say, 
Congressman, is that Japan has not gotten enough credit for 
actually very generous support on a range of issues.
    And what is different, if I may say, about this particular 
commitment than certain things in the past is sometimes in the 
past we have had to go to the Japanese and say, can you support 
us in this endeavor or that endeavor? This was a Japanese 
initiative. They came to us in the fall and said, we would like 
to support you. Here are the things that we can think would 
make sense. Do you have any recommendations or suggestions?
    We have altered a few of these things, but if all of our 
allies stepped up in this way, we would be in a very different 
situation than we are today in Afghanistan.
    Mr. Taylor. Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Mr. Ortiz. We will go to the lady from Guam, Congresswoman 
Bordallo.
    Ms. Bordallo. Thank you. Thank you, very much, Mr. 
Chairman. This is a very important hearing for me.
    Secretary Gregson, Secretary Pfannenstiel, and Secretary 
Campbell, thank you for your testimonies.
    The realignment of Marines from Okinawa, Japan, to Guam is 
a critical part of our relationship with the Japanese. The 
realignment of military forces was first signed in 2006 by the 
Bush administration and was reaffirmed by Secretary Clinton 
when she signed the so-called Guam International Agreement in 
February of 2009. Our relationship with the Government of Japan 
has significant impacts for Guam.
    The realignment of Marines, positioning of a transient 
carrier berth, and a placement of a missile defense system will 
place a significant burden on my constituents. We must do all 
that we can to ensure that we get this done right; and this is 
what Mr. Skelton, our Chairman, has said from the very 
beginning.
    Secretary Pfannenstiel, I appreciated your leadership in 
working with Nancy Sutley, Chairwoman of the White House 
Council on Environmental Quality; Under Secretary Dorothy 
Robyn; and Assistant Secretary Tony Babauta in providing 
presentations to local elected leaders and the public on Guam 
about the findings in the Final EIS. I just arrived from Guam, 
and I was there during all of the meetings.
    Your presence on Guam for these presentations highlights 
the attention and the support that this Administration has for 
getting the build-up done right. However, I have continued to 
have significant concerns about the findings in the Final EIS.
    We have made significant progress in identifying funds for 
infrastructure improvements; and while I applaud the progress 
made in using Japanese funds for upgrades to our 
infrastructure, this Congress must understand how these funds 
will be used and what strings are attached. We made it clear 
that we want to understand this new construct before funds are 
used according to a reporting requirement in the fiscal year 
2010 defense authorization bill.
    Further, I will reiterate my skepticism that the Department 
of the Navy will be successful in obtaining private or 
Government of Guam lands in the Pagat area to develop a 
training range for the Marine Corps. While I appreciate the 
readiness requirements of the Marines, I believe more creative 
options are available to meet these training requirements, 
including moving this training range entirely to Tinian or to 
areas at Anderson Air Force base or Naval Magazine. I request 
that the Department of the Navy work to develop alternative 
plans, because I, frankly, remain very skeptical that the 
preferred alternative will be achieved, and I am adamantly 
opposed to the use of eminent domain to acquire these lands if 
local landowners are not willing to sell or lease.
    I am very supportive and I have been all along of the 
military build-up, but we need, again, to get this done right.
    With that said, I would like to ask a few questions.
    First to you, Secretary Pfannenstiel, a recent report in 
Guam News indicates that the National Historic Preservation 
Trust has retained legal counsel and is considering a legal 
challenge to the placement of the training range on Pagat cliff 
line. Can I assume that the Department will work 
collaboratively with the Preservation Trust to better 
understand the decision to locate at Pagat?
    And, similarly, how will the Record of Decision address the 
matter of a training range on Pagat and how the Department 
plans to acquire land?
    Secretary Pfannenstiel. Thank you, Congresswoman. Thank you 
for your support of the build-up, your help last week in 
communicating with the elected officials and the people of 
Guam. It was, as always, a real treat to be there, and I really 
appreciated your help in that.
    In specific answer to your questions, first, let me take 
the one about the National Historic Preservation Trust. I also 
just saw a reference to the possibility of legal counsel.
    I want to assure you we have been working with the National 
Historic Preservation Trust and will continue to do so. As we 
discussed last week, we believe that the preservation of the 
Pagat Village site as a very special cultural place for Guam is 
consistent with the training range. I think that we need to 
work very closely with the community in assuring that the 
community has the access they need, that there is nothing in 
the training range that will damage in any way or interfere 
with the use of that site.
    I believe, as we discussed last week, that that can be 
done. I know it requires some additional work, and we are there 
to do that.
    As far as how the Record of Decision will deal with the 
acquisition of the property, we do have more work to do on the 
property needs, the property needs primarily for the training 
ranges. I think there are other property needs, but the one 
that is of most concern at the moment is for the training 
ranges. We are working on that. We need to both define what the 
requirements specifically are so that we can examine throughout 
whether there are other possibilities. We put in our preferred 
alternative. We believe that will still work, and we need to 
look at how that will happen.
    In terms of acquiring the land, we have not begun 
discussions with landowners. We are waiting for the Final EIS 
to define that and then for the ROD to come out. But we will 
engage in discussions with landowners. We are committed to 
purchasing whatever land we need if we do need to purchase 
additional land, purchase or lease or exchange if that would 
work. So we believe that there are a number of ways we can 
achieve what we need to achieve meeting the needs of the people 
of Guam.
    Ms. Bordallo. Mr. Chairman, since this is so vitally 
important, I have one last question.
    The Chairman. [Presiding.] We will come back to you very 
quickly and give you another 5 minutes. Be right back.
    General Gregson, at the end of the realignment, will the 
Marine Corps requirements be met and will their capabilities be 
enhanced by moving from Okinawa to Guam?
    Secretary Gregson. I think I would defer to Marine Corps 
representatives to state whether their requirements will be 
met. However, it is the Defense Department's goal that we do 
meet all of the requirements.
    The Chairman. No, no, no. I am asking you in your 
professional opinion, General. I will repeat the question.
    Secretary Gregson. No, sir. Yes, they will be met.
    The Chairman. Thank you.
    Mr. Ortiz, and then we will return to----
    Oh, excuse me. Excuse me, Mr. Wilson. Did you have a 
question?
    Mr. Wilson. Yes, Mr. Chairman.
    One final question with regard to missile defense. With the 
increased capability of range from North Korea, we have all 
known that South Korea, that Japan are at risk, possibly 
Taiwan. But I am very concerned that, in fact, Hawaii, Alaska 
are now within range; and how can we assure the people of 
Hawaii that we are proceeding with a missile defense that can 
protect the people of that State?
    Secretary Gregson. We are doing everything we can to 
provide a solid missile defense regime. We are also in 
cooperation with our friends in both Korea and Japan on this.
    Japan, as we mentioned, has invested in BMD-capable Aegis 
destroyers. We recently completed the cooperative development 
of the Standard Missile-3 Block II upgrade to those missiles 
which will allow the Japanese ships to engage much longer range 
than they would have been able to otherwise. We are working 
with the Republic of Korea on missile defense.
    This has to be a cooperative effort. No nation can protect 
itself as well as it should be without cooperation from other 
countries, and that is the direction that we are going with 
this.
    Mr. Wilson. And I am just so hopeful with people as 
technologically proficient as the people in Japan working 
together we can protect our American States of Hawaii and 
Alaska. Thank you.
    The Chairman. Mr. Ortiz.
    Mr. Ortiz. You know how we can work this out. We have been 
one big family for a long time; and I think that the forward 
presence is very, very important to me and to our military. But 
I am just wondering, does all this realignment, is it supported 
by the Marine Corps, this realignment? Do they support it?
    Secretary Pfannenstiel. Yes, sir, they do. They need to 
have their needs met. They need to have their training needs 
fully met. And, with that, with housing that is the right 
housing, with housing and facilities that work for them, the 
training ranges that meet their training needs, yes, they will 
support this.
    Mr. Ortiz. One of the things that we have seen in the past 
few years during these two wars is that before we send our 
young men and women into harm's way we need to be sure that 
they have the proper training, that they have the proper 
equipment. And how long will it take for them to get the 
training areas solved before--do we have any idea?
    Secretary Gregson. If I could. Thanks to the efforts of the 
members of this committee and many other colleagues up here on 
the Hill, we have in the United States an absolutely 
unparalleled, outstanding training and force generation base. 
With the number of installations we have in the continental 
United States, Hawaii, and Alaska, it is simply impossible to 
recreate that whole capability anyplace other than where it is 
now.
    But what we will be able to do is, as Secretary Gates has 
said, make our training capabilities in the Pacific as 
competent as it can be and make it increasingly bilateral in 
nature so that we have the ability not only to do training 
ourselves but to train with our allies and friends.
    We will expand the training areas available to our forces 
in the Pacific as much as we can, but these, as we all realize, 
get into some complex international negotiations.
    Nevertheless, the Commonwealth of the Northern Marianas 
just north of Guam has a covenant with the United States, but 
it is treated like a territory. We still have a lease on the 
major portion of Tinian Island. The Compact States, the 
Federated States of Micronesia, the Republics of the Marshalls 
and Palau, have a compact with the United States that obliges 
them to make training areas available for the United States. We 
plan on taking advantage of that much more than we have in the 
past.
    To support our forces in Korea as well as forces in Japan 
now, we have a mix of training that is done locally and also 
the rotation of units from the United States to Japan or to 
Korea for a period of duty and then back to the United States 
again so that we can take advantage of the force generation 
capabilities, the training capabilities that are available here 
that may not in their fullest measure be available overseas.
    So to the Chairman's previous question about will the 
Marines requirements be taken care of, yes. There is a longer 
answer that involves all the details about how the Department 
of Defense, with the full cooperation of the Department of the 
Navy, the Marine Corps, the Navy, the Air Force, and their 
associated departments to manage the training and the rotation 
of forces overseas. So we have absolutely our best foot forward 
in a very difficult and dangerous region, and also before we 
put young Americans in harm's way we assure they have the 
absolute best training and qualifications that we can get them.
    Mr. Ortiz. One last question. If I understand correctly, we 
have a new Governor in Okinawa?
    Secretary Gregson. No. I forget when the election was. His 
name is Governor Nakaima. He is, in my opinion, a very strong 
leader. We look forward to working with him.
    Mr. Ortiz. He is running for reelection--I was just 
corrected. He is running for reelection in November as well.
    Secretary Gregson. November 28th is the election date, to 
my understanding.
    Mr. Ortiz. He is receptive to the idea of what we are 
planning on doing?
    Secretary Gregson. He is a champion for his constituents. 
So, within that limit, he is receptive to the ideas and what we 
are doing.
    Mr. Ortiz. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman.
    Now back to Ms. Bordallo for another 5 minutes.
    Ms. Bordallo. Thank you. Thank you very much, Mr. Chairman.
    Secretary Pfannenstiel, I just want to further--you 
answered my question by saying things are being worked out. 
Well, I was there during the protests, and there was strong 
opposition to the Pagat site, and I didn't feel very 
comfortable about it. If things can be worked out, fine. It 
didn't look very promising to me. But do you have an 
alternative? Are you working on some kind of an alternative 
site?
    Secretary Pfannenstiel. Congresswoman, we are always 
looking at available land, trying to determine whether we can 
find land that would meet the needs in a very safe manner.
    We have examined the use of the site near Pagat to make 
sure that it is both safe and in no way will affect the site. 
However, we do recognize that there is a community issue, and 
we want to be responsive to that.
    We started initially by looking at many other sites, and 
this was the one that was recommended to us that seemed to meet 
all of the criteria that we needed in terms of size and safety 
and traffic and accessibility and convenience to both the 
Marines and not interfering with the community. If it turns out 
this one doesn't work, then we will, of course, continue to 
look.
    Ms. Bordallo. Look for an alternative. I hope so. Because I 
do want it to work. And we knew that when the Final EIS would 
come out that this and also the port, the berthing area, there 
would be a problem. But this in particular really made the 
news, and I was there with the protesters, so I realized that 
they are in strong opposition.
    I have one more question here. Secretary Gregson or 
Secretary Campbell, there have been cuts to the military 
construction budget for Guam in the Senate as well as from our 
appropriator friends in the House. One item that is cited for 
the cuts is the lack of tangible progress on the replacement 
Futenma facility in Okinawa. In the past, we have been led to 
believe that tangible progress meant the Governor signing a 
permit for a new landfill. Has what constitutes tangible 
progress shifted?
    Furthermore, what impact do the military construction cuts 
have on the Guam International Agreement, and do you have any 
concerns that these cuts will cause hurdles in implementing 
fiscal year 2010 and 2011 funding for Guam?
    Secretary Gregson. Thank you for the question. I will defer 
to Secretary Pfannenstiel on the executability of the funds in 
the proposed budget.
    My concern on the cuts is that--well, let me address the 
tangible progress first.
    With the new Government coming to power in Japan, we 
obviously went through a period of re-examination and 
revalidation. That re-examination and revalidation is over. The 
essential character and the operations of the alliance have 
been revalidated.
    Most importantly, very senior Japanese leadership has 
endorsed the U.S. presence in Japan and specifically in 
Okinawa. Minister Kan--Prime Minister Kan has pledged a 
solution to the Futenma replacement problem. The May 28th 
agreement that was signed at the Secretary of Defense/Secretary 
of State level with their counterparts established the location 
for the new facility to be Camp Schwab, as it was originally 
planned, and mandated an experts' group to work through the 
rest of the details. That group is very active. It is meeting 
as we speak.
    The remaining details to be worked out are details of the 
method of construction and the exact configuration of the 
facilities that will be constructed and where exactly the 
runways will be.
    We do not yet have tangible progress. We are confident we 
will get there.
    And my worry about on the policy side with the proposed 
cuts to the budget are that this will induce some doubt within 
the Japanese body politic on whether we are committed to our 
part of the agreement. So, from that manner, if asked, I would 
counsel against those cuts.
    Ms. Bordallo. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. There being no further questions, we 
certainly thank the panel for being with us and for your 
testimony. We look forward to seeing you again.
    The hearing has ended.
    [Whereupon, at 11:50 a.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             July 27, 2010

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             July 27, 2010

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T2162.001
    
    [GRAPHIC] [TIFF OMITTED] T2162.002
    
    [GRAPHIC] [TIFF OMITTED] T2162.003
    
    [GRAPHIC] [TIFF OMITTED] T2162.004
    
    [GRAPHIC] [TIFF OMITTED] T2162.005
    
    [GRAPHIC] [TIFF OMITTED] T2162.006
    
    [GRAPHIC] [TIFF OMITTED] T2162.007
    
    [GRAPHIC] [TIFF OMITTED] T2162.008
    
    [GRAPHIC] [TIFF OMITTED] T2162.009
    
    [GRAPHIC] [TIFF OMITTED] T2162.010
    
    [GRAPHIC] [TIFF OMITTED] T2162.011
    
    [GRAPHIC] [TIFF OMITTED] T2162.012
    
    [GRAPHIC] [TIFF OMITTED] T2162.013
    
    [GRAPHIC] [TIFF OMITTED] T2162.014
    
    [GRAPHIC] [TIFF OMITTED] T2162.015
    
    [GRAPHIC] [TIFF OMITTED] T2162.016
    
    [GRAPHIC] [TIFF OMITTED] T2162.017
    
    [GRAPHIC] [TIFF OMITTED] T2162.018
    
    [GRAPHIC] [TIFF OMITTED] T2162.019
    
    [GRAPHIC] [TIFF OMITTED] T2162.020
    
    [GRAPHIC] [TIFF OMITTED] T2162.021
    
    [GRAPHIC] [TIFF OMITTED] T2162.022
    
    [GRAPHIC] [TIFF OMITTED] T2162.023
    
    [GRAPHIC] [TIFF OMITTED] T2162.024
    
    [GRAPHIC] [TIFF OMITTED] T2162.025
    
    [GRAPHIC] [TIFF OMITTED] T2162.026
    
    [GRAPHIC] [TIFF OMITTED] T2162.027
    
    [GRAPHIC] [TIFF OMITTED] T2162.028
    
    [GRAPHIC] [TIFF OMITTED] T2162.029
    
?

      
=======================================================================


              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                             July 27, 2010

=======================================================================

      
              RESPONSE TO QUESTION SUBMITTED BY MR. ORTIZ

    Secretary Gregson. The U.S. Department of Transportation (DOT), 
through the Federal Highway Administration and the Maritime 
Administration (MARAD), and the U.S. Department of Agriculture (USDA) 
have begun to address Guam's infrastructure deficiencies and future 
needs. USDA has already provided $15 million in grants and $88 million 
in pending loans for landfill and utilities improvements.
    USDA is poised to provide $50 million in grants and matching loans 
to the $50 million the Department of Defense has requested for 
improvement to Guam's sole commercial port. These funds would be used 
for the planning, design, and construction of projects to improve 
facilities, relieve port congestion, and provide greater access to port 
facilities, and would be managed by MARAD under the Port of Guam 
Improvement Enterprise Program. [See page 10.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. TAYLOR

    Secretary Gregson. Our extensive effort to deter, track, and stop 
North Korean arms sales includes working closely with the international 
community. United Nations Security Council Resolution (UNSCR) 1874 
prohibits North Korea from transferring all conventional arms; however, 
illicit North Korean shipments interdicted since May 2009 suggest that 
sanctions have not deterred Pyongyang from attempting such transfers. 
Illicit activities represent an important source of North Korean hard 
currency--indicating that Pyongyang is unlikely to cease arms export 
activity. According to a UN report, there are at least four cases 
involving interdicted arms exports from North Korea since the adoption 
of UNSCR 1874.

    <bullet>  In July 2009, UAE authorities seized containers of the 
cargo ship ANL Australia carrying conventional arms cargo from North 
Korea to a Middle East customer. According to open source reports, the 
seized cargo included 122mm rockets and rocket propelled grenades.

    <bullet>  In October 2009, South Korea seized four containers of 
North Korean-origin chemical warfare protective suits destined for 
Syria.

    <bullet>  In December 2009, Thailand seized 35 tons of North 
Korean-origin weapons, including 240mm rockets, RPG-7s, and MANPADS, 
aboard an IL-76 cargo aircraft ultimately bound for Iran.

    <bullet>  In February 2010, South Africa seized North Korea-origin 
tanks spare parts onboard a cargo vessel in the port of Durban. The 
T54/55 components were bound for the Republic of Congo.

    According to a UN panel of experts report, North Korea uses various 
methods to circumvent UNSCRs 1718 and 1874 and ship conventional 
weapons, including falsifying end user certificates and mislabeling 
crates, sending cargo through multiple front companies and 
intermediaries, and using air cargo to handle high value and sensitive 
arms exports. In addition to shipping complete conventional weapons 
systems, North Korea also transports conventional arms in the form of 
knock-down kits, which can be transported along with North Korean 
technicians to provide a country with a weapons assembly capability. If 
desired by the Committee, I would be happy to provide additional 
classified information on the export of submarine and submarine 
technology by North Korea. [See page 23.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
